                                                           2 0 0 1

S e m i a n n u a l    R e p o r t


Office of the Inspector General




                      April 1, 2001 – September 30, 2001
Tennessee Valley Aut h ority , 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401




Richard F. Chambers
Inspector General


October 31, 2001



TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

I am pleased to submit this semiannual report on the accomplishments of the OIG for the six-month period end-
ing September 30, 2001.

Consistent with our newly adopted strategic plan, we made significant progress during the period in aligning the
organization to better support the needs of our stakeholders. In this regard, we reorganized our audit operations
to provide better emphasis on the core business processes of TVA, including energy operations. In addition, we
created a separate team to provide advisory services to TVA officials and members of Congress with questions
about TVA operations. We also realigned our investigative resources to facilitate our role in ensuring integrity in
TVA operations.

We have featured the United States flag on the cover of this report as a reflection of our sympathy and solidarity
with those directly affected by the tragic events beginning with the September 11, 2001, terrorist attacks on
America. We stand ready to assist fellow law enforcement agencies in any way possible during this time of
national crisis.

This will be my final semiannual report to Congress as the Inspector General of TVA. I recently announced my
intention to retire from federal service in January 2002. I am extremely grateful for the support I have received
from all of our stakeholders during the past year. It has been an honor and privilege to conclude my career in
public service as the TVA Inspector General.

Pursuant to the Federal Vacancies Reform Act, my First Assistant, Donald Hickman, will assume the role of
Acting Inspector General for TVA upon my retirement.

On behalf of Mr. Hickman and myself, I pledge the continued support of the OIG to those we serve.

Sincerely,




Richard F. Chambers
Executive Summary                                                                                       1

TVA Profile                                                                                             2

Office of the Inspector General                                                                         3

Special Features                                                                                        5

Audits                                                                                                  9

Investigations                                                                                         14

Legislation and Regulations                                                                            18

Highlights                                                                                             30




Appendices

Appendix 1 Audit Reports Issued by Subject Area                                                        21

Appendix 2 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds      25

Appendix 3 Investigative Referrals and Prosecutive Results                                             27

Appendix 4 Audit Reports With Corrective Actions Pending                                               28

Appendix 5 Index of Reporting Requirements Required by the Inspector General Act of 1978, as amended   29




                                                              SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
         During this reporting period, we began       We completed 47 audits and identified
         implementing our strategic plan and our      over $3.5 million in questioned costs and
         new vision––to illuminate today’s chal-      over $10.4 million in funds that could be
         lenges and tomorrow’s solutions. Steps       used more effectively. Representative
         taken to implement our strategic objec-      audits included the following:
         tives include a realignment of our organi-   (1) preaward and post-award contract
         zation to better meet customer needs,        audits, (2) TVA’s managed agency
         focus on high risk areas, and make opti-     account, (3) hospitality program, (4) con-
         mal use of our resources.                    tributions program, (5) TVA debt adminis-
                                                      tration, and (6) congressional advisory
         Our efforts to support TVA through quali-
                                                      reviews.
         ty audits and investigations helped TVA
         management avoid unnecessary costs,          We closed 59 investigations, including
         recover funds, confirm many programs         multi-agency task force projects which
         were working effectively, and correct        led to over $7 million in recoveries, pro-
         identified weaknesses. We also support-      jected savings, and fines/penalties;
         ed task forces operating in the              administrative or disciplinary action taken
         Tennessee Valley.                            against 8 individuals; and other correc-
                                                      tive action in 3 cases. We also complet-
         During this reporting period, manage-
                                                      ed 61 OIG employment suitability
         ment took numerous actions in response
                                                      background investigations. Matters we
         to our recommendations. In addition, we
                                                      investigated included alleged workers’
         identified over $21 million in recoveries,
                                                      compensation fraud, environmental
         fines/penalties, potential savings, ques-
                                                      crimes, fraudulent contractor claims for
         tioned costs, or funds which could be
                                                      temporary living expenses, health care
         put to better use.
                                                      fraud, and employee misconduct. Our
                                                      investigations led to five individuals or
                                                      entities being indicted and seven
                                                      convicted.




TVA / OFFICE OF THE INSPECTOR GENERAL                 1
                                                 These include navigation, flood control,
                                                 power supply, land use, water quality,
                                                 and recreation.

                                                 TVA also contributes to the Valley econo-
                                                 my, chiefly by keeping power rates com-
                                                 petitive, which helps attract and retain
TVA is a federal corporation established         industries that provide quality jobs in the
in 1933 to provide flood control, naviga-        region. By providing assistance in the
tion, and electric power in the Tennessee        form of capital investment, support of
Valley region. Today, TVA is the nation’s        business incubators, specialized techni-
largest public power company and a               cal services and advice, and industrial
regional development agency that sup-            recruitment for new and existing indus-
plies low-cost reliable power, supports a        tries, TVA helps communities promote
thriving river system, and stimulates sus-       sustainable economic development
tainable economic development in a               through creating and retaining jobs and
service area that covers 80,000 square           improving business and workforce
miles in the Southeastern United States,         productivity.
including almost all of Tennessee and
                                                 TVA’s power system pays its own way by
parts of Mississippi, Kentucky, Alabama,
                                                 selling electricity and issuing bonds. The
Georgia, North Carolina, and Virginia.
                                                 system does not use tax dollars. In
TVA generates power at 11 coal-burning           addition, TVA no longer receives con-
plants, 3 nuclear plants, 29 hydroelectric       gressional appropriations to help fund its
dams, and 1 pumped storage plant.                activities in navigation, flood control,
TVA also produces energy from three              environmental research, and land man-
renewable sources––sun, wind, and                agement. These programs are now
methane gas from waste. It provides              funded by power revenues.
electric power to 158 local power distrib-
                                                 TVA is governed by a three-member
utors, 54 large industries, and 8 federal
                                                 Board of Directors. Directors are
agencies through a network of 17,000
                                                 appointed by the President and
miles of transmission lines.
                                                 confirmed by the Senate. Current Board
TVA manages the nation’s fifth largest           members are Glenn L. McCullough, Jr.,
river system. TVA’s dams are part of a           and Skila Harris. During this reporting
totally integrated resource management           period, the President designated Director
system where each dam operates in                McCullough as Board Chairman and
relationship to the others and are used          nominated William Baxter to fill the
for multiple purposes and public benefits.       remaining Director’s position.




                                             2   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            Office Authority                               Organization

            TVA’s OIG was created by the TVA Board         The OIG consists of two major opera-
            of Directors in October 1985. It became        tional units––Audits and Investigations.
            statutory under the Inspector General
                                                           The OIG’s Audit Operations unit consists
            Act Amendments of 1988. Those
                                                           of four departments––(1) Advisory
            amendments established OIGs at TVA
                                                           Services, focusing on preaward audits
            and 32 other agencies with Inspectors
                                                           and management and congressional
            General appointed by the agency heads.
                                                           request work; (2) Corporate Operations
            The authority to appoint the TVA
                                                           and Control, focusing on contract com-
            Inspector General was transferred to the
                                                           pliance reviews and corporate programs;
            President in November 2000 by Public
                                                           (3) Energy Operations, focusing on TVA
            Law 106–422.
                                                           core business operations; and
            The Inspector General is responsible for       (4) Information Technology, focusing on
            conducting audits and investigations           computer security and system reviews
            relating to TVA programs and operations,       and managing the OIG’s independent
            while keeping the TVA Board and                computer network.
            Congress fully and currently informed
                                                           The OIG’s Investigations unit consists of
            about problems and deficiencies relating
                                                           three major areas––(1) Business Integrity,
            to the administration of TVA’s programs
                                                           focusing on nuclear issues, workers’
            and operations. TVA’s Inspector General
                                                           compensation fraud and abuse, employ-
            is independent and subject only to the
                                                           ee misconduct, and OIG employment
            general supervision of the TVA Board of
                                                           suitability background investigations;
            Directors. The Inspector General’s
                                                           (2) Business Protection, focusing on con-
            authority includes conducting any audits
                                                           tract fraud, contract-related misconduct,
            or investigations the Inspector General
                                                           and environmental crimes; and
            deems necessary or desirable, issuing
                                                           (3) Computer Crimes and Electronic
            subpoenas, administering oaths, and
                                                           Commerce, focusing on computer intru-
            granting confidentiality.
                                                           sion and fraud issues, health care fraud,
                                                           and workplace violence prevention.




TVA / OFFICE OF THE INSPECTOR GENERAL                  3
        Staffing and Budget

        The OIG’s offices are in the TVA head-
        quarters in Knoxville, Tennessee. The
        OIG also has a satellite office in
        Chattanooga, Tennessee.

        The OIG’s fiscal year 2001 budget was
        $8.6 million with a budgeted headcount
        of 90 employees.




                                                INSPECTOR GENERAL

                                                 Richard F. Chambers




Legal Counsel                 Assistant Inspector             Manager                 Assistant Inspector
                               General (Audits)           (Human Resources)          General (Investigations)
Richard P. Levi
                                Ben R. Wagner                   Kay T. Myers            G. Donald Hickman



                                          ❏ Advisory Services                  Business Integrity    ❏
            Deputy Assistant                David P. Wheeler                   C. Dale Hamilton
           Inspector General                Manager                            Manager
          (Audit and Support)
                                          ❏ Corporate Operations               Business Protection   ❏
             Lewis M. Ogles                 and Control                        Ron W. Taylor
                                            Jill M. Matthews                   Manager
                                            Manager

                                          ❏ Energy Operations                  Computer Crimes and ❏
                                            Paul E. Ivie                       Electronic Commerce
                                            Manager                            Curtis D. Phillips
                                                                               Manager
                                          ❏ Information Technology
                                            Deborah M. Thornton
                                            Manager




                                                            4       SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            OIG’s Strategic Planning                        improvement while preventing and
                                                            detecting fraud, waste, and abuse; and
            Initiatives
                                                            (4) keep the Board of Directors and

            In order to position ourselves to better        Congress fully informed about significant

            serve our customers/stakeholders in the         problems and deficiencies we identify.

            twenty–first century and provide a clear
                                                            We selected five strategic objectives we
            path forward for the OIG, we began a
                                                            must accomplish to succeed in meeting
            strategic planning process in January
                                                            these goals. They are to:
            2001 called Vision XXI. As part of that
            process, the OIG Leadership Team:               n Cultivate and retain a highly skilled,
                                                               innovative, and motivated workforce;
            n Reexamined OIG customers/
                                                            n Enhance communications with stake-
               stakeholders and their needs,
                                                               holders and deliver services that meet
            n Rearticulated our mission and identi-
                                                               their needs;
               fied our key values,
                                                            n Leverage OIG resources to optimize
            n Identified and discussed trends and
                                                               productivity and results;
               assumptions about the future,
                                                            n Focus on areas of high risk to TVA;
            n Forged an organizational vision,
                                                               and
            n Discussed performance gaps,
                                                            n Envision change affecting TVA and
            n Outlined goals and strategic objec-
                                                               identify effective solutions.
               tives, and
            n Identified action steps needed to             We have already taken several major
               achieve the strategic objectives.            steps to implement our strategic
                                                            objectives.
            In the last semiannual report, we report-
            ed on our new vision, …illuminating             n We realigned our organization to bet-
            today’s challenges and tomorrow’s solu-            ter meet customer needs, focus on
            tions…. Since then, we defined our                 high risk areas, and make optimal
            goals, strategic objectives, and action            use of our resources. The realign-
            steps and began implementing the plan.             ment, effective October 1, 2001,
                                                               shifts OIG support functions under a
            Our goals, based on the requirements of
                                                               new position––Deputy Assistant
            the Inspector General Act of 1978, as
                                                               Inspector General (Audit and
            amended, are to (1) foster efficient and
                                                               Support)––redefines responsibilities
            effective operations within the agency;
                                                               for the four audit departments,
            (2) assess enterprise risks and conduct
                                                               realigns existing investigative depart-
            audits, investigations, and other reviews
                                                               ment responsibilities and adds a third
            of programs and operations within TVA;
                                                               investigative department to
            (3) promote integrity and continuous




TVA / OFFICE OF THE INSPECTOR GENERAL                   5
   concentrate on computer crime and
   electronic commerce issues, and
   shifts the focus of human resources
   activities from day-to-day program
   administration to organizational
   strategies and development. (See
   the Organization narrative on page 3
   for additional detail on department
   alignment.)
n We interviewed TVA managers for
   their views on TVA challenges and
   risks. An assessment of probability
   was added to the OIG risk assess-
   ment model, and the interview results
   and model were used to develop the
   fiscal year 2002 annual audit
   workplan.
n We established a career track pro-
   gram for entry-level auditors to facili-
   tate recruitment and retention of the
   "best and brightest" college gradu-
   ates. The program is designed to
   develop fully trained auditors capable
   of planning, leading, and executing
   audits of TVA programs, functions,
   and operations.

We will continue to implement the
Vision XXI plan. During the year, we will
track performance to gauge our
progress.




                                              6   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            PCIE/ECIE Awards

            Each year, the President’s Council on
            Integrity and Efficiency (PCIE) and the
            Executive Council on Integrity and
            Efficiency (ECIE) present awards for out-
            standing achievements within the
            Inspector General community in promot-
            ing economy and efficiency in preventing
            and fighting fraud, waste, and abuse in
            federal operations. Three OIG audit
            teams and one OIG investigative team
            received ECIE Awards for Excellence. In
            addition, two OIG special agents were on
                                                                            PCIE/ECIE Joint Award for Excellence - Investigations
            the Health Care Fraud Joint Task Force                           (left to right) Elizabeth Sherrod, Richard Chambers,
                                                                                                     Bill McBee
            Team which received a PCIE/ECIE Award
            for Excellence.




                          ECIE Award for Excellence - Audit                               ECIE Award for Excellence - Audit
                       (Back, left to right) Cheryl Liles, Richard             (Back, left to right) Joe Bowditch, Richard Chambers,
                                 Chambers, Ben Wagner                                         Curt Hudson, Karen Pickard
                  (Front, left to right) Doug Jackson, Jill Matthews,            (Front, left to right) Dave Wheeler, Melissa Neusel,
                        Jacqueline Rowan (not pictured--Tom                              Karen Boone, Deborah Kearnaghan
                        Johnson, Rick Taylor, and Mike Ogles)                          (not pictured--Mike Blair and Paul Ivie)




TVA / OFFICE OF THE INSPECTOR GENERAL                                   7
                         ECIE Award for Excellence - Audit
               (Back, left to right) Cheryl Liles, Sylvia Whitehouse,
                 Chad Bube, Richard Chambers, Doug Jackson
(Front, left to right) Lisa Hammer, Patsy Foster, Greg Jaynes, Karen Pickard
                  (not pictured--Mike Ogles and Tom Johnson)




             ECIE Award for Excellence - Multiple Disciplines
         (Back, left to right) Cindy Stansberry, Richard Chambers,
                         Don Hickman, Dale Hamilton
              (Front, left to right) Donna Griffin, Anne Ferrell,
                           Phyllis Palmer, Rick Levi
                         (not pictured--Beth Thomas)




                                      8        SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            Summary of                                       n We reviewed the contractor’s pro-

            Representative Audits                               posed rates for direct labor, indirect
                                                                costs, equipment, and laboratory
            Audits are initiated from (1) the OIG               costs under a three-year, $3.5 million
            annual workplan, (2) issues identified by           contract for industrial hygiene servic-
            the OIG subsequent to the annual work-              es. We determined the contractor
            plan, (3) issues identified by cooperative          overstated various markup and billing
            efforts with TVA management, or (4) con-            rates. Accordingly, TVA negotiated
            cerns raised by TVA management or oth-              terms that could save about
            ers. During this reporting period, we               $958,000.
            completed 47 audits which identified             n We reviewed a contractor’s proposal
            over $3.5 million in questioned costs and           to provide modification and supple-
            over $10.4 million in funds which could             mental maintenance services under a
            be put to better use (see Appendix 1).              planned three-year, $531.6 million
            We also identified numerous opportuni-              contract extension. We determined
            ties for TVA to improve program                     the contractor overstated the pro-
            operations.                                         posed fringe benefit rate and sug-
                                                                gested TVA implement certain rate
            Our audits included preaward and post-              discounts provided on a previous
            award audits of TVA contractors, per-               contract. TVA management negotiat-
            formance reviews of TVA operations, and             ed savings of about $362,000.
            congressional advisory reviews.                  n We reviewed proposed labor
                                                                markups, pay ranges, and insurance
            PREAWARD CONTRACT AUDITS
                                                                rates for a four-year, $220 million
            We completed nine preaward audits to
                                                                extension of a modification and sup-
            support TVA management in negotiating
                                                                plemental maintenance contract. We
            procurement actions. These audits iden-
                                                                suggested TVA negotiate a reduced
            tified $2.1 million in potential savings.
                                                                fringe benefit markup rate to the
            During this reporting period, TVA man-
                                                                company’s actual rate. TVA manage-
            agement successfully negotiated total
                                                                ment successfully negotiated a
            savings of $4.7 million as a result of
                                                                $316,000 savings.
            audits issued during this and previous
            reporting periods. TVA management is             CONTRACT COMPLIANCE AUDITS
            continuing negotiation of other contracts        We completed 16 contract compliance
            we audited during this reporting period.         audits and questioned $3.4 million in
            Highlights of the more significant               ineligible and unsupported costs. Our
            preaward audits follow.                          audit findings included questioned costs
                                                             related to:




TVA / OFFICE OF THE INSPECTOR GENERAL                    9
n Overbilled labor charges,                            benefits, and paid time off was higher
n Unsupported and ineligible labor                     than actual costs. Also, the contrac-
   costs,                                              tor overbilled TVA due to miscella-
n Unsupported and ineligible travel                    neous billing errors. The contractor
   costs,                                              agreed with the findings and issued
n Provisional billings greater than actual             credits to TVA.
   costs, and
                                                   TVA’S MANAGED AGENCY ACCOUNT
n Invoice errors and duplicate billings.
                                                   We reviewed $4.7 million in costs paid by
Management generally agreed with our               TVA from an agency account between
findings and has taken or plans to take            January 1, 1996, and May 31, 2000.
action to recover questioned costs                 This account was used to fund, among
where appropriate. Highlights of the               other things, a rural studies program and
more significant contract compliance               contributions to a graduate school of
audits follow.                                     business. In summary, we determined
                                                   TVA had numerous control weaknesses
n In reviewing costs billed for technical
                                                   associated with (1) payments made as
   and clerical staff augmentation servic-
                                                   contributions rather than cost–
   es provided by a TVA contractor
                                                   reimbursements, (2) assessing the bene-
   under three contracts, we identified
                                                   fits of work performed, and (3) reviewing
   ineligible and unsupported labor
                                                   and approving cost billings.
   charges. TVA management plans to
   recover the ineligible costs and work           TVA management has acted to address
   with the contractor to improve record           our findings including the termination of
   keeping.                                        the Rural Studies Program and improving
n We reviewed labor, material, and                 controls related to contracts with col-
   other costs billed by a contractor in           leges and universities.
   support of TVA’s hydro system under
                                                   HOSPITALITY PROGRAM REVIEW
   a $19.7 million contract. We deter-
   mined the contractor overbilled labor           TVA incurs hospitality expenses for offi-
   costs and had some unsupported                  cial visitors, candidates for employment,
   and/or ineligible labor, travel, and            guests, employees, and contract
   other direct costs. TVA management              employees as part of its business
   successfully negotiated a recovery              activities.
   totaling $327,948.
                                                   We reviewed TVA’s hospitality program
n We reviewed $10.9 million in costs
                                                   and determined the internal controls
   billed to TVA for security services.
                                                   were adequate except for TVA’s process
   We determined the contractor’s provi-
                                                   for classifying hospitality expenses. We
   sional billing for payroll taxes, fringe




                                              10   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            estimated $1.2 million of the reported             expenses as a percentage of total costs
            $9.2 million was misclassified as hospi-           from 34 percent to 26 percent, and
            tality. We made no recommendations                 (3) the average interest rate on long-term
            because TVA was taking appropriate                 debt from 7.4 percent to 6.5 percent.
            corrective actions.

            TVA CONTRIBUTIONS PROGRAM                          Congressional Advisory
            TVA contributed approximately $9.7 mil-
                                                               Reviews
            lion to various outside organizations dur-
                                                               UPDATE ON SELECTED
            ing fiscal years 1999 and 2000. TVA
                                                               MANAGEMENT PRACTICES
            established guidelines for its corporate
                                                               At the request of Congressman Zach
            contributions program in 1999 to better
                                                               Wamp, we performed an update review
            focus contribution activities on its busi-
                                                               of TVA management practices in five
            ness interests. Our audit determined
                                                               areas––consulting contracts, advertising,
            that TVA had not established sufficient
                                                               special events (including barge events),
            guidance and practices to comprehen-
                                                               executive air transportation, and the relo-
            sively manage all contributions.
                                                               cation of personnel and programs to
            We also identified $8 million of funds that        Nashville, Tennessee. In summary, since
            had been set aside for future contribu-            our initial series of reports to
            tions since fiscal year 1999. However,             Congressman Wamp in 1997, TVA has:
            TVA no longer had plans to use these
                                                               n Competed or eliminated several long-
            funds. TVA management agreed with
                                                                  term consulting contracts, imple-
            our findings and is taking action to
                                                                  mented enhanced contracting
            (1) institute a comprehensive business
                                                                  procedures, and developed and
            practice for contributions, (2) improve
                                                                  implemented a training program to
            related accounting, and (3) initiate the
                                                                  improve contractor oversight. Annual
            release of the $8 million to TVA’s general
                                                                  expenditures for active consulting
            fund.
                                                                  and training contracts of $100,000 or
            TVA ADMINISTRATION OF                                 more have decreased by 45 percent.
            LONG-TERM DEBT                                        In addition, we estimated TVA has
            In a review of TVA's long-term debt                   reduced the percentage of training
            administration, we determined that TVA                and consulting contracts awarded
            has made significant progress in reduc-               without competition from about
            ing interest cost. As of September 30,                80 percent as noted in our 1997
            2000, TVA's actions have, among other                 review to about 45 percent during fis-
            things, reduced (1) annual interest costs             cal year 2000.
            by about $230 million, (2) interest




TVA / OFFICE OF THE INSPECTOR GENERAL                     11
n Increased its advertising expenditures         n The types of costs giving rise to the
   every year through fiscal year 2000,             power rates were similar for both TVA
   but decided to reduce advertising                and the investor-owned utilities, but
   expenditures for fiscal year 2001 by             the relative amounts associated with
   about 70 percent.                                each cost type differed.
n Increased the number of special                n TVA's rate base included some
   events, excluding barge events, from             expenditures that either were not
   18 in 1995 to 33 events in fiscal year           incurred or might not be allowed in
   2000, and increased total special                the rate base of an investor-owned
   event expenditures from $848,000 in              utility; however, the impact of these
   1995 to about $2 million in 1999 and             expenditures on TVA's power rates
   $1.8 million in 2000.                            was minimal.
n Reduced the number of barge events             n TVA had no specific Board-approved
   from a high of 19 in 1996 to only 1              policy for recovering stranded costs
   event in fiscal year 2000, and                   when a distributor or direct-serve
   reduced related expenditures from a              customer leaves TVA. Instead, TVA
   high of about $179,000 in 1997 to                relied on its power contracts and
   only $28,000 in fiscal year 2000.                Federal Energy Regulatory
n Experienced minimal change in the                 Commission Order No. 888 for
   usage of charter and King Air flights            recovery of any stranded costs.
   used for executive travel, with the           n TVA’s rates for its direct-serve cus-
   annual cost of flights increasing.               tomers were significantly lower than
n Transferred 28 employees to                       the rates provided to the distributors
   Nashville and filled additional vacant           because direct-serve customers were
   Nashville positions via internal                 predominately industrial customers
   employee selections and new hires                which (1) are highly reliant on lower
   from outside TVA.                                cost interruptible power and (2) have
                                                    more stable and predictable energy
SELECTED POWER RATE AND COST
                                                    requirements.
ISSUES

At the request of Senator Mitch                  COMPLIANCE WITH THE NATIONAL
McConnell, we reviewed selected issues           ENERGY CONSERVATION POLICY
                                                 ACT
related to TVA’s power rates and costs.
In summary, we determined:                       At the request of the Senate Committee
                                                 on Governmental Affairs, we assessed
n The average 1999 revenue per kilo-             TVA’s progress in meeting federal energy
   watt hour sold by TVA and its distrib-        management goals and identified addi-
   utors was lower than the average for          tional actions or opportunities available
   the investor-owned utilities.




                                            12   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            to further reduce TVA’s energy consump-         n TVA’s decision to select HRT was not
            tion and costs. We determined TVA:                 the least costly alternative.
                                                               Furthermore, the decision was not
            n Was generally ahead of or on sched-
                                                               supported by TVA’s (1) economic
               ule for meeting target goals estab-
                                                               analysis, (2) evaluation of lease pro-
               lished by the National Energy
                                                               posals, (3) changes in office space
               Conservation Policy Act, as amend-
                                                               requirements, (4) capital project justifi-
               ed, and Executive Order 13123; and
                                                               cation process, or (5) recent estimate
            n Had historically demonstrated leader-
                                                               of savings resulting from consolidat-
               ship in promoting energy manage-
                                                               ing operations into HRT.
               ment, including taking numerous
                                                            n TVA incurred some costs associated
               energy conservation initiatives not
                                                               with the HRT build-out that we
               addressed by the legislation or exec-
                                                               believe were unnecessary and/or
               utive order.
                                                               unreasonable, especially considering
                                                               (1) many of the amenities paid for by
            Although TVA had demonstrated consid-
                                                               TVA are not subject to removal upon
            erable success, we identified opportuni-
                                                               expiration of the lease and (2) TVA’s
            ties for improvement in the areas of
                                                               right for continued occupancy is limit-
            sustainable building design and model
                                                               ed to a maximum of 10 years.
            lease provisions. TVA management
            agreed to take appropriate corrective
                                                            We recommended that TVA manage-
            action.
                                                            ment (1) adhere to its project review

            HIGHLAND RIDGE TOWER                            process in future evaluations or docu-
                                                            ment that deviations are in the best inter-
            On August 31, 1999, TVA entered into a
                                                            est of TVA and (2) avoid significant
            lease agreement for 134,466 rentable
                                                            capital expenditures involving short-term
            square feet of space in the Highland
                                                            lease agreements, unless the amenities
            Ridge Tower (HRT), a facility then under
                                                            associated with the expenditure are
            construction near the Nashville
                                                            removable upon expiration of the lease.
            International Airport. At the request of
                                                            TVA management subsequently complet-
            Senator Jeff Sessions, we assessed the
                                                            ed a TVA-wide facilities strategic plan,
            reasonableness of TVA’s decision to con-
                                                            which addressed these
            solidate operations into HRT, as well as
                                                            recommendations.
            the reasonableness of HRT build-out
            costs incurred by TVA. In summary, we
            found:




TVA / OFFICE OF THE INSPECTOR GENERAL                  13
Summary of                                               ingly. The reduction in benefits will
                                                         save TVA over $8,800 per year or
Representative
                                                         more than $250,000 in long-term
Investigations
                                                         benefits.

During the last six months, we substanti-             n As a result of another inquiry, OWCP

ated allegations in 16 of 59 investigations              referred a former TVA employee to a

we closed––over 27 percent. In addi-                     physician to assess his ability to

tion, we completed 61 OIG employment                     work. The physician concluded the

suitability background investigations.                   former employee could perform cer-

Our investigations, including task force                 tain job duties. Based on the physi-

projects, resulted in (1) $7,176,068 in                  cian’s opinion, OWCP determined the

recoveries, projected savings, and                       individual did not have a loss of wage

fines/penalties; (2) five individuals or enti-           earning capacity and terminated the

ties being indicted; and (3) seven individ-              individual’s OWCP benefits, resulting

uals convicted. Representative                           in a projected long-term savings

investigations are highlighted below.                    exceeding $240,000.


WORKERS’ COMPENSATION                                 TEMPORARY LIVING EXPENSES
BENEFITS INVESTIGATIONS                               We continued our efforts to reduce TVA
Investigations of allegations involving               contract costs by identifying fraudulent
Federal Employees’ Compensation Act                   and ineligible temporary living expenses
fraud led to projected long-term savings              (TLE) paid to TVA contractor employees.
to TVA exceeding $400,000.
                                                      Our investigations resulted in a settle-
n Investigation revealed a former TVA                 ment agreement with a former TVAN
   Nuclear (TVAN) employee receiving                  contractor employee. The employee had
   total disability benefits was actively             received TLE and demobilization expens-
   involved in the management and day-                es based on his certifications that he
   to-day operation of a restaurant/bar.              maintained a permanent residence over
                                                      100 miles from his worksite. The
   Although the United States Attorney’s              claimed permanent residence, however,
   office declined prosecution in this                was purchased after the individual began
   case, we submitted a report to the                 working at the TVAN facility and was
   Office of Workers’ Compensation                    used as rental property. The individual
   Program (OWCP) describing the                      never resided at the home and sold it
   results of our investigation. As a                 after his TVAN assignment ended.
   result, OWCP reassessed the former
   employee’s ability to work and
   reduced his compensation accord-




                                                 14   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            The individual agreed to pay $100,000                in laborers being paid for hours they
            restitution to TVA under the False Claims            did not work.
            Act.
                                                                 Based on our findings, the individual
            EMPLOYEE MISCONDUCT                                  resigned.
            Results of our employee misconduct
                                                              ENVIRONMENTAL CRIMES JOINT
            investigations included one employee’s
                                                              TASK FORCE
            suspension without pay and another’s
                                                              We continued our participation in the
            resignation as described below.
                                                              Environmental Crimes Joint Task Force
            n Evidence developed during an OIG                (ECJTF), which is comprised of members
               investigation showed a TVA employee            from numerous state and federal agen-
               knowingly violated TVA policy by               cies, including the Federal Bureau of
               (1) improperly obtaining and using a           Investigation, Environmental Protection
               restricted TVA password; (2) having            Agency, Department of Justice, and
               over 50 unauthorized programs on               TVA’s OIG.
               his TVA computer, including "hacker"
                                                              ECJTF focuses enhanced law enforce-
               programs, password retrieval pro-
                                                              ment resources against individuals and
               grams, and programs to allow him to
                                                              companies by applying the most effec-
               bypass TVA’s blocks on internet sites;
                                                              tive federal and state criminal and civil
               and (3) using TVA resources in con-
                                                              statutes. Highlights of the task force’s
               nection with his personal business.
                                                              work reported during this period include
               Based on our findings, TVA manage-             the following.
               ment placed the employee in non-
                                                              n Investigation revealed an individual
               work, nonpay status for 30 days. He
                                                                 illegally stored at least 33 drums of
               was returned to work based on the
                                                                 hazardous waste at the site of his for-
               stipulations that he complete speci-
                                                                 mer Chattanooga, Tennessee, busi-
               fied training, pass a background
                                                                 ness, which closed during 1997.
               security check, and discontinue out-
                                                                 (The business produced and distrib-
               side computer consulting while
                                                                 uted industrial cleaning solvents.)
               employed at TVA.
                                                                 The drums, which were stored on the
            n Investigation revealed an employee
                                                                 site until their 1999 disposal, con-
               made comments of a sexual nature in
                                                                 tained ignitable and corrosive wastes.
               the workplace and showed sexually
               related images to subordinates. The               The individual pled guilty to one count
               employee also was involved in other               of storing a hazardous waste without
               inappropriate conduct, including falsi-           a permit, in violation of the Resource
               fication of timesheets, which resulted            Conservation and Recovery Act, and




TVA / OFFICE OF THE INSPECTOR GENERAL                    15
   was sentenced in federal court to                removal system to prevent the accu-
   eight months’ imprisonment and                   mulation of oil on the basin’s surface.
   three years’ probation. In addition,
                                                 HEALTH CARE FRAUD TASK FORCE
   he was ordered to pay $25,000 to
   the Tennessee Department of                   We continued to support health care

   Environment and Conservation for              fraud task forces and working groups

   environmental protection and a                sponsored by the United States

   $10,000 fine.                                 Attorney’s offices in Tennessee’s Eastern,

n Pursuant to a plea agreement, a rail-          Middle, and Western federal districts.

   way company doing business in
                                                 As a result of a task force investigation
   Chattanooga agreed to spend over
                                                 during an earlier period, an indictment in
   $4 million to remediate a basin locat-
                                                 the Eastern federal district charged a
   ed at its Chattanooga diesel shop.
                                                 physician with 57 counts of mail fraud,
   (The company pled guilty to one
                                                 15 counts of health care fraud, and 6
   count of violating the Migratory Bird
                                                 counts of making false statements relat-
   Treaty Act.)
                                                 ing to health care matters. (One of the

   Locomotives were fueled, serviced,            57 counts of mail fraud was subsequent-

   washed, and painted at the compa-             ly dismissed.) The indictment alleged the

   ny’s diesel shop. Wastewater and              physician defrauded Blue Cross Blue

   stormwater entered the shop’s onsite          Shield of Tennessee (BCBST) private

   wastewater treatment plant, which             insurance plans and TVA’s medical plan

   removed petroleum contaminants                (administered by BCBST) of over

   from the water before discharging it          $123,000 during an approximate three-

   into a Chattanooga municipal waste-           year period. The task force investigation

   water treatment plant. Although the           found evidence the physician mailed

   basins that feed the onsite treatment         claim forms containing false information

   plant were in compliance with envi-           to obtain payment for services not ren-

   ronmental regulations, evidence indi-         dered and for supplies not used. The

   cated that several geese had been             physician pled not guilty to the charges.

   contaminated by oil in one of the
                                                 In April 2001, while the physician’s trial
   basins.
                                                 was in progress, he entered a plea of

   The company agreed to implement a             guilty to all 77 remaining counts. In

   remediation plan at an estimated cost         August 2001, he was sentenced in fed-

   of $4.1 to $7.4 million to remove the         eral court to pay over $200,000 in resti-

   accumulated oil in the problem basin          tution and to serve 2 years in a

   and to install a permanent, fixed oil         correctional facility, 3 years’ supervised




                                            16   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
               probation, and 150 hours’ community                                                           of Defense (Defense Criminal Investi-
               service.                                                                                      gative Services), Department of Labor,
                                                                                                             and investigators from BCBST’s Special
               The investigation was conducted by OIG
                                                                                                             Investigations Unit.
               special agents from TVA, the Department




                                 Administrative and Disciplinary Actions
                                 October 1, 1996 - September 30, 2001*
                                               Total = 243


                                                     Oral/Written
                                                      Warnings                  Suspensions/
                 Reemployment                            20%                     Demotions/
                    Flagged                                                       Transfers
                      24%                                                           9.5%



                                                                                        Resignations/
                                                                                        Terminations
                                                                                            13%

                                            Counseling/
                                            Management
                                            Techniques
                                              33.5%

                                   *Prosecutive referrals are shown in Appendix 3




                                                                                                                   Closed Cases by Area
                                                                                                                 April 1 - September 30, 2001
                                                                                                                           Total = 59*

                                                                                    River System
                                                                                    Operations &                         Other
                                                                                    Environment                          27%
                                                                                       13.5%                                                             Fossil Power
                                                                                                                                                             17%




                                                                                                                                                 Human Resources
                                                                                               TVA Nuclear                                           18.5%
                                                                                                  24%


                                                                                               *Figures do not include OIG employment suitability background investigations
                                                                                                                        closed during this period.




                                  Sources of Hotline Calls Warranting
                                          Further OIG Action
                                     April 1 - September 30, 2001
                                                Total = 39


                            TVA Employees
                                 36%
                                                                                       Former TVA/
                                                                                        Contractor
                                                                                        Employees
                                                                                           18%




                                        General Public
                                            46%




TVA / OFFICE OF THE INSPECTOR GENERAL                                                            17
We continued to follow issues of interest
to the OIG and TVA, including funding for
the Inspector General academy, organi-
zation and structure of the Inspector
General councils, law enforcement
authority, utility deregulation, and struc-
ture of the TVA Board. Effective
October 1, 2001, the TVA OIG became a
member of the PCIE.




                                              18   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
TVA / OFFICE OF THE INSPECTOR GENERAL
APPENDICES




     20   SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
           Audit Reports Issued by Subject Area
           AUDIT REPORT
           NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
           AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

            Contract
           2000-026C-01
           04/02/2001      Adecco Technical                       $729,400      $691,400

           2000-026C-03
           04/02/2001      Adecco Technical                       1,452,689    1,451,400      $7,600

           2001-014C
           04/16/2001      Review of Consulting Contracts

           2000-067C
           04/17/2001      Review of TVA Managed
                           Agency Account                              2,742                 266,400

           2000-077C
           04/17/2001      Towers Perrin

           2001-022C
           04/30/2001      Midpoint International

           2001-025C
           05/09/2001      Cormetech, Inc.

           2001-026C
           05/14/2001      Steag, LLC                                                        275,000

           2000-042C
           05/16/2001      Siemens Westinghouse Power
                           Corporation                             838,199       135,192

           2001-047C
           05/30/2001      Pinkerton Government Services, Inc.     240,759       240,759

           2001-046C
           06/06/2001      Alpine Environmental & Safety, Inc.                                98,465

           2001-058C
           06/06/2001      Preaward Audit of Analytical
                           Industries, Inc.

           2001-045C
           06/12/2001      EHS Services, LLC

           2001-055C
           06/12/2001      Providence Rotating Electrical
                           Services, Inc.                           14,396        14,396

           2001-063C
           07/09/2001      General Electric Company -
                           Gallatin Field Labor Cost
                           Adjustment Fossil Plant                 103,553       103,553

           2001-001C
           07/23/2001      KPMG                                        9,770

           2001-042C-01
           07/31/2001      Peabody Coal Company                        3,763




TVA/OFFICE OF THE INSPECTOR GENERAL                               21
Audit Reports Issued by Subject Area
AUDIT REPORT
NUMBER                                            QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                  COSTS       COSTS     BETTER USE

Contract (continued)
2001-050C
08/09/2001   Union Pacific Railroad Company

2001-062C
08/09/2001   Team Associates, Inc.

2001-044C
08/10/2001   PSC Safety and Health
             Services, Inc.                                                             $982,000

2001-069C
08/13/2001   Day & Zimmermann NPS, Inc.                                                  316,000

2001-004C
08/21/2001   Roberts & Schaffer Company

2001-082C
09/11/2001   Hartford Steam Boiler                                                        60,250

2001-073C
09/18/2001   G-UB-MK Constructors                                                        362,000

2001-075C
09/18/2001   SSC Service Solutions

2001-078C
09/18/2001   S&C Electric - Circuit Switchers
             and Interrupter Switches

2001-079C
09/18/2001   Weststaff (USA), Inc.

2001-020C
09/28/2001   BOC Gases                               $78,100                              32,800


Financial
2001-010F
04/16/2001   Pre-Implementation Review
             of System and Data
             Conversion Plans for TVA’s Fuels
             Management System

2001-033F
06/14/2001   Selected Power Rate and Cost Issues

2001-028F
06/20/2001   Review of TVA's Contributions Program                                     8,000,000

2000-053F
07/12/2001   Pre-Implementation Review
             of Internal Controls for the Fuels
             Management System




                                                     22        SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            Audit Reports Issued by Subject Area
            AUDIT REPORT
            NUMBER                                               QUESTIONED UNSUPPORTED FUNDS PUT TO
            AND DATE     TITLE                                     COSTS       COSTS     BETTER USE

            Financial (continued)
            2001-018F
            07/31/2001     Review of TVA's
                           Hospitality Program

            2001-007F
            08/17/2001     Review of TVA's Long-Term
                           Debt Administration

            Operational

            2001-914C
            04/02/2001     Update on Selected Management
                           Practices

            2001-037P
            04/23/2001     Highland Ridge Tower

            2001-054P
            05/23/2001     Review of TVA Workers’ Compensation
                           Department Internal Controls Over
                           Prescription Reimbursements

            2001-039P
            06/07/2001     Materials Management at the Colbert
                           Fossil Plant

            2001-015P
            06/28/2001     TVA Office Space

            2001-081P
            08/24/2001     TVA's Compliance With the National
                           Energy Conservation Policy Act

            2001-072P
            08/28/2001     Outage Tools and Consumables
                           Management at Colbert Fossil Plant

            2001-036P
            09/12/2001     Expanded Review of TVA Coal
                           Quality Adjustment Report
                           Payments                                $45,789




TVA / OFFICE OF THE INSPECTOR GENERAL                             23
Audit Reports Issued by Subject Area
AUDIT REPORT
NUMBER                                                     QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                           COSTS       COSTS     BETTER USE

Information Technology
2001-061T
06/29/2001           Follow-up Review of Controls Over
                     Systems Management Server
                     Remote Control Tools

2001-068T
07/16/2001           Pre-Implementation Review of System
                     and Data Conversion Plans for TVA’s
                     New Supply Chain System

2001-070T
08/16/2001           Pre-Implementation Review of TVA’s New
                     Supply Chain System Testing

2001-034T
09/07/2001           TVA Planning and Implementation for
                     Critical Infrastructure Protection

2001-067T
09/07/2001           Review of Supply Chain System
                     Internal Controls

TOTAL                47                                    $3,519,160              $2,636,700           $10,400,515*


* This figure includes $98,465 identified in preaward audits of proposals for contracts that were not
  subsequently awarded.




                                                               24       SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            Audit Reports Issued With Questioned Costs
                                                                                                    Questioned Costs
                                                                            Number               Total       Unsupported




            A.   For which no management decision has been
                 made by the commencement of the reporting period              1                 $929,000                   $0

            B.   Which were issued during the reporting period               11                $3,519,160          $2,636,700

            Subtotals of A and B                                             12              $4,448,160           $2,636,700

            C.   For which a management decision was made during
                 the reporting period                                        11*               $4,344,607          $2,533,147

                 (i) Dollar value of disallowed costs                        10                $1,235,995            $390,347

                 (ii) Dollar value of costs not disallowed                     6               $3,108,612          $2,142,800

            D.   For which no management decision has been made by
                 the end of the reporting period                               1                 $103,553            $103,553

            E.   For which no management decision was made within
                 six months of issuance                                        0                        $0                  $0


            * The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs disallowed
              and not disallowed by management.




TVA / OFFICE OF THE INSPECTOR GENERAL                                  25
Audit Reports Issued With Recommendations for Better Use of Funds
                                                                             Number                Dollar Value



A.   For which no management decision has been
     made by the commencement of the reporting period                           3                    $1,412,000*

B.   Which were issued during the reporting period                             10                  $10,400,515

Subtotals of A and B                                                          13                  $11,812,515

C.   For which a management decision was made during
     the reporting period                                                      11                  $11,477,265

     (i) Dollar value of disallowed costs                                       9                  $10,154,865

     (ii) Dollar value of costs not disallowed                                  2                    $1,322,400

D.   For which no management decision has been made by
     the end of the reporting period                                            2                     $335,250

E.   For which no management decision was made within
     six months of issuance                                                     0                            $0


* The number differs from the prior report’s ending number due to classification errors on management decisions in the
  prior report.




                                                             26       SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            Investigative Referrals and Prosecutive Results
            Referrals This Period

                    Subjects Referred to United States Attorneys                                     13
                    Subjects Referred to Other Agencies for Investigative or Administrative Action   0


            Results This Period

                    Subjects Indicted                                                                5
                    Subjects Convicted                                                               7
                    Referrals Declined                                                               6


                    OWCP reduced benefits for one individual and terminated benefits for
                    another, creating projected savings totaling $495,575.




TVA / OFFICE OF THE INSPECTOR GENERAL                                  27
Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE            DESCRIPTION




2000-016P
February 23, 2001   The report contained two recommendations regarding the internal controls associated with TVA
                    coal quality adjustment report payments. TVA has resolved one of the recommendations and is
                    currently implementing the recommendation to design additional automated controls for these
                    payments.

2000-063F
March 7, 2001       The report contained five recommendations regarding the internal controls over agent officer
                    payments. TVA has resolved two of the recommendations and is currently implementing their
                    planned actions for the remaining recommendations.




                                                         28      SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
            Index of Reporting Requirements Required by the Inspector General
            Act of 1978, as amended
            Reporting Requirement                                                                                    Page




            Section 4(a)(2)   Review of Legislation and Regulations                                                     18


            Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                          5-17


            Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies          5-17


            Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                              Corrective Action Has Not Been Completed                                           Appendix 4


            Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                              That Have Resulted                                                                 Appendix 3


            Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
            and 6(b)(2)


            Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 1


            Section 5(a)(7)   Summary of Particularly Significant Reports                                             9-17


            Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 2


            Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                              That Funds Be Put to Better Use                                                    Appendix 2


            Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                             Reporting Period                                                                         None


            Section 5(a)(11) Significant Revised Management Decisions                                                 None


            Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None




TVA / OFFICE OF THE INSPECTOR GENERAL                                       29
                                          SEPT 30,      MAR 31,      SEPT 30,    MAR 31,     SEPT 30,
                                            2001         2001          2000       2000         1999

ANNUAL BUDGET (In Millions of Dollars)         8.6         8.6          7.2         7.2         7.3
CURRENT STAFFING                                86          74           77          79          78

AUDITS & SPECIAL PROJECTS

AUDITS IN PROGRESS
Carried Forward                                 45         43            48          36         34
Started                                         44         52            38          59         41
Canceled                                         (4)        (7)           (8)         (2)        (3)
Completed                                      (47)       (43)          (35)        (45)       (36)
In Progress at End of Reporting Period          38         45            43          48         36

AUDIT RESULTS (Thousands)
Questioned Costs                          $3,519        $2,613       $1,800        $952      $1,678
Disallowed by TVA                          1,236         3,010          379         820         673
Recovered by TVA                           1,634           821          390       1,333         580

Funds to Be Put to Better Use            $10,401       $70,422      $12,862      $5,296      $9,861
Agreed to by TVA                          10,155        37,450       12,499       5,509       7,612
Realized by TVA                            8,277        30,918       17,340       5,775       1,834

SPECIAL PROJECTS (Thousands)
Completed                                         0        13            8          12           11
Cost Savings Identified/Realized                  0         0         $233        $345            0

INVESTIGATIONS

INVESTIGATION CASELOAD
Opened                                          94         86          132         107          88
Closed                                         120         83           99         111          81
In Progress at End of Reporting Period         147        173          170         137*        140

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                $6,527         $214         $179       $3,758      $1,772
Savings                                      542          532          521          988       1,422
Fines/Penalties                              105          250           11           25           5

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                        13         14            13         21           21
Actions Taken (# of Subjects)                    8         30            11         13           17
Counseling/Management
  Techniques Employed (# of Cases)                3           9            6          5           3

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                        13          7            32           7           8
Indicted                                         5         19             5           6           7
Convicted                                        7         14             5           9           5

* Adjusted from previous semiannual reports.




                                                         30       SEMIANNUAL REPORT / APRIL 1 ∼ SEPTEMBER 30, 2001
                 The OIG Vision:
       . . . illuminating today’s challenges
           and tomorrow’s solutions . . .




OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
